Before the Committee on Transportation and Infrastructure
United States House of Representatives
Subcommittee on Highways and Transit

For Release on Delivery
Expected at               FHWA Has Taken Actions
                          But Could Do More to
10:00 a.m.
Wednesday
July 21, 2010
CC-2010-066
                          Strengthen Oversight of
                          Bridge Safety and
                          States' Use of Federal
                          Bridge Funding



                          Statement of Joseph W. Comé
                          Assistant Inspector General for
                           Highway and Transit Audits
                          U.S. Department of Transportation
Mr. Chairman, Ranking Member Duncan, and Members of the Subcommittee:

Thank you for inviting me here today to discuss the Federal Highway
Administration's (FHWA) oversight of the Highway Bridge Program and the
National Bridge Inspection Program. Maximizing Federal surface transportation
investments to improve bridge conditions is an important and major challenge.
According to FHWA, about one-quarter of the Nation’s more than 600,000 1
bridges have major deterioration, cracks in their structural components, or other
deficiencies. FHWA has estimated that approximately $100 billion would be
needed to address current bridge deficiencies and make other improvements. 2 The
collapse of the Interstate 35W Bridge in Minneapolis, Minnesota, on
August 1, 2007, focused attention on the need to maximize bridge investments and
the importance of having strong bridge safety programs.

Over the last 4 years, we have issued three reports on FHWA's bridge oversight, 3
and while FHWA has responded positively to our recommendations, further
actions are needed to enhance oversight of bridge safety and related funding. My
testimony today focuses on FHWA's efforts to (1) implement a data-driven, risk-
based approach to overseeing the Nation's bridges, (2) ensure that states comply
with bridge inspection standards, and (3) strengthen its oversight of states' use of
Federal bridge funding.

IN SUMMARY
FHWA has taken action to implement risk-based oversight in the bridge program
and to enforce more consistently the National Bridge Inspection Standards
(NBIS). For example, FHWA has developed a risk assessment program to
identify high-priority bridge safety risks. FHWA also launched an initiative,
which it is currently piloting, to determine states' overall compliance with the
NBIS by using specific risk-based metrics that are linked to the standards, such as
those for inspection frequency. Despite these actions, sustained management
attention is needed to ensure that identified safety risks are addressed, and that
planned improvements in the inspection oversight program are implemented in


1
    This estimate is based on 2009 data.
2
    This is the most recent estimate, according to FHWA's 2008 Conditions and Performance report. The report is
    based primarily on 2006 data in constant 2006 dollars.
3
    OIG Report Number MH-2006-043, “Audit of Oversight of Load Ratings and Postings on Structurally Deficient
    Bridges on the National Highway System,” March 21, 2006. OIG Report Number MH-2009-013, "National Bridge
    Inspection Program: Assessment of FHWA's Implementation of Data-Driven, Risk-Based Oversight," January 12,
    2009. OIG Report Number MH-2010-039, "Assessment of FHWA Oversight of the Highway Bridge Program and
    the National Bridge Inspection Program," January 14, 2010. OIG reports and testimonies are available on our
    website: www.oig.dot.gov.


                                                                                                             1
time for FHWA's next inspection of states' compliance with Federal bridge
standards.

Less progress has been made in acquiring data to evaluate states' use of Highway
Bridge Program (HBP) funding. Current practices do not ensure that states are
using this funding effectively to improve the condition of deficient bridges. We
also identified concerns related to the effective use of bridge funds provided
through the American Recovery and Reinvestment Act (ARRA). FHWA has
expressed concern about taking action to acquire better data on bridge funding
because its efforts could be affected by changes to the Federal-aid program and the
HBP resulting from the next highway authorization bill. However, taking action
now to develop improved tools for assessing the effectiveness of current bridge
funding could put FHWA in a better position to quickly respond to new statutory
requirements.

BACKGROUND
In the late 1960s, following the collapse of the Silver Bridge over the Ohio River,
Congress determined, through a series of hearings, that addressing serious bridge
safety concerns should be a national priority. In 1971, FHWA issued standards for
identifying, inspecting, evaluating, and acting on bridge deficiencies to ensure that
bridges are safe. Despite these standards, however, major bridge collapses
occurred over the next several decades that investigations showed were caused at
least in part by structural deficiencies created by climate and other environmental
conditions.

While states are responsible for ensuring that bridges within their jurisdictions are
safe, FHWA is responsible for overseeing states' efforts and providing technical
expertise and guidance in the execution of bridge inspection, repair and
maintenance, and remediation activities. As of December 2009, approximately
6,000 of the more than 117,000 bridges in the National Highway System inventory
were classified as “structurally deficient” due to major deterioration, cracks, or
other deficiencies in their structural components (see fig. 1). In some cases,
structurally deficient bridges require repair or closure. However, most bridges
classified as structurally deficient can carry traffic safely if they are properly
inspected, maximum load ratings are properly calculated, and maximum weight
limits are posted, when necessary.




                                                                                   2
         Figure 1: How a Bridge Can Become Structurally Deficient

 Bridge superstructure is                                                                        Speed, surface roughness,
 susceptible to corrosion, water              Standing water                                     and truck suspension interact
 damage, metal fatigue, and                   promotes deck         Water and deicers            to amplify stress
 stress caused by vibration                   deterioration         corrode steel
                                                                    reinforcement,
                               Debris inhibits                      causing spalling
                               deck drainage




                                                                                                         Debris-clogged joint
                                                                                                         prevents movement
                                                                                                         necessary to relieve
                                                                                                         superstructure stresses
                                   Surface corrosion
                                                                                                         Improper drainage
                                                                                                         causes damage to
                                                                                                         concrete

         Decay or
         misalignment
                                           Water movement can scour
         of bearings                                                                          Crack in substructure caused
                                           away soil under foundation
                                                                                              by settling of foundation




 Source: Illustration by Jana Brenning. Copyright Jana Brenning. Reprinted with permission.
 Illustration first appeared in Scientific American, March 1993.




FULL IMPLEMENTATION OF PLANNED ACTIONS IS NEEDED TO
TARGET HIGH-PRIORITY BRIDGE RISKS
A data-driven, risk-based approach to overseeing the Nation's bridges is critical to
ensuring that Federal oversight activities target the most significant bridge safety
risks. While FHWA has made progress in developing a risk-based oversight
approach, its success hinges on the full implementation of initiatives with clear
direction for Division Offices on how to address identified risks, and actions to
ensure that new requirements are followed across the states.




                                                                                                                             3
In January 2009, we reported that FHWA had made limited progress in
implementing a risk-based approach. 4 For example, only one-third of the bridge
engineers at the 10 Division Offices we reviewed used FHWA's recommended
guidance and tools, including National Bridge Inventory (NBI) data 5 reports. By
not using the data reports, bridge engineers missed opportunities to coordinate
with states to identify and remediate bridge safety risks. In addition, FHWA did
not routinely exercise systematic data-driven oversight to comprehensively
identify nationwide bridge safety risks, prioritize them, and target those higher
priority risks for remediation in coordination with states.

To better ensure that higher-priority bridge deficiencies and safety risks are
targeted, we recommended that FHWA develop a comprehensive plan to routinely
conduct systematic, data-driven analysis to identify nationwide bridge safety risks,
prioritize them, and target those higher priority risks for remediation in
coordination with states. We also called for action to ensure prompt correction of
inaccurate bridge data reported to FHWA.

Our preliminary review of actions taken to date indicates that FHWA has
identified high-priority bridge safety risks nationwide, with input provided by its
Office of Bridge Technology, which manages the National Bridge Inspection
Program. FHWA also issued a February 2009 memorandum to Federal Lands
Highway Division Engineers and Division Administrators notifying them that NBI
data files submitted with significant errors would be returned to them for
immediate resolution. Based on these actions, we closed the recommendation on
developing a requirement for states to promptly correct inaccurate data submitted
to FHWA for the NBI.

To fully implement its data-driven risk based approach and ensure that Federal
oversight activities address the Nation's most significant safety risks, FHWA will
need to carry out its commitment, made in response to our 2009 report, to direct
Division Offices to work with states to mitigate high-priority bridge safety risks
identified in past reviews of state bridge programs. Although we had not
previously received a response on this matter, as we were finalizing our statement
for this hearing, FHWA provided us with information that it states addresses this
commitment. However, we will need to fully review this information to ensure
that the recommendation is being carried out. Further, since data quality is critical
to this approach, FHWA needs to ensure that its new policy on correcting data
inaccuracies is followed.



4
    OIG Report Number MH-2009-013.
5
    The National Bridge Inventory is a database maintained by FHWA using data states submit annually on the Nation's
    public highway bridges.

                                                                                                                  4
FHWA INITIATIVES TO ENSURE STATES COMPLY WITH
BRIDGE INSPECTION STANDARDS MUST BE COMPLETED BY
YEAR'S END TO INFORM THE NEXT INSPECTION CYCLE
Previously, we reported that FHWA Division Offices lacked sufficient guidance
on conducting consistent reviews of states' compliance with the NBIS. FHWA has
initiatives underway to address our prior recommendations to provide bridge
engineers with criteria that would allow them to determine, with greater
consistency, whether states demonstrate overall compliance with NBIS. FHWA is
also developing risk-based guidance that defines the procedures that Division
Offices should follow in enforcing compliance. However, to ensure the improved
criteria and guidance are used during the next NBIS compliance inspection cycle,
scheduled for 2011, these initiatives will need to be completed by the end of 2010.

FHWA bridge engineers, 6 in conjunction with other Division Office officials, are
responsible for determining whether states comply with NBIS bridge safety
requirements, including the frequency of inspections, inspection personnel
qualifications, and the data that states are required to report. Annual NBIS
compliance reviews include bridge field reviews, interviews with state bridge
staff, and reviews of state bridge inspection data. To enforce NBIS requirements,
FHWA may require a non-compliant state to develop a plan to correct a
deficiency. FHWA can ultimately suspend Federal-aid highway funds if a
deficiency is not corrected.

In January 2010, we reported that the ability of FHWA bridge engineers to
determine states' overall compliance was hindered by a lack of clear and
comprehensive guidance from FHWA. 7 For example, of the 11 bridge engineers
we surveyed, 7 responded that FHWA’s guidance did not adequately define when
to suspend funds. Consequently, Federal-aid highway funds were provided to
states with serious incidents of noncompliance. In one case, a bridge engineer
reported to FHWA that a state was substantially compliant, despite the state’s
failure to close 96 bridges, as required by bridge inspection standards.

To strengthen enforcement of bridge inspection standards, we recommended that
FHWA develop detailed criteria to help bridge engineers determine with greater
consistency whether states demonstrate overall compliance with NBIS. We also
recommended that FHWA develop a policy providing clear, comprehensive, risk-
based guidance that defines the procedures that Division Offices should follow to
enforce compliance with the NBIS. FHWA’s enforcement actions, such as the

6
    Typically, one bridge engineer is located in each Division Office. The person responsible for conducting the annual
    review could have a job title other than bridge engineer, such as structures engineer. Division Offices are located in
    each state, the District of Columbia, and Puerto Rico.
7
    OIG Report Number MH-2010-039.

                                                                                                                        5
amount of time states are given to remediate deficiencies and whether to suspend
Federal-aid highway funds, should reflect the results of a data-driven assessment
of each risk’s significance and its possible effect on bridge safety. Stronger
enforcement actions would be necessary for cases in which higher priority safety
risks are identified.

According to FHWA officials, the agency is developing a uniform definition of
NBIS compliance and data-driven, risk-based metrics for assessing state
compliance, and focusing on identifying opportunities to improve current
practices, establish minimum expectations, and increase uniformity in oversight
practices. They also reported starting a pilot initiative in 12 Division Offices using
the new metrics, and a prototype database for recording results and generating
reports. According to FHWA, it plans to have a new process in place for
conducting the 2011 annual compliance reviews of the states.

While FHWA's planned actions are consistent with our recommendations, their
success will depend on the results of the ongoing pilot project using the new
metrics, and FHWA’s ability to evaluate results and translate them into specific
lessons learned in a timely manner. We will continue to monitor FHWA's
progress in meeting the December 31, 2010 target date for the nationwide roll-
out of this program and ensuring consistent enforcement of bridge safety
standards.

STRENGTHENED OVERSIGHT OF STATES' USE OF FEDERAL
BRIDGE FUNDING IS NEEDED TO MAXIMIZE THE RETURN ON
INVESTMENT
FHWA lacks sufficient data to evaluate whether the billions of dollars apportioned
to states through the HBP, 8 and billions more in ARRA dollars, have been used to
improve the condition of the Nation's most deficient bridges. In addition, FHWA
regulations on value engineering studies—which states are required to conduct on
high-cost highway and bridge projects—are out of date. Greater use of value
engineering could help states stretch limited Federal dollars and put them to better
use on other bridge projects.

FHWA Lacks Sufficient Data to Evaluate States' Use of HBP Funds
FHWA is responsible under Federal law for monitoring the efficient and effective
use of Federal-aid highway funds. 9 However, FHWA lacks sufficient data to
evaluate whether states are effectively using the billions of Federal dollars
apportioned to them through HBP, which in fiscal year 2009 provided $5.2 billion

8
    HBP is the primary Federal program that funds the replacement and rehabilitation of bridges nationwide.
9
    23 U.S.C. §106 (2006).

                                                                                                              6
to states. To apportion funding to states for bridge remediation, HBP uses a
needs-based formula based on data collected by state and local governments
during inspections of public highway bridges. States that demonstrate greater
need receive more funding.

Despite assurances from the former FHWA Administrator that the agency could
obtain data on how much HBP funding has been spent on structurally deficient
bridges, 10 FHWA's accounting system, the Fiscal Management Information
System (FMIS), lacks the details needed to link expenditures to bridge
improvements. Specifically, the system tracks expenditures at the project level. 11
However, this tracking provides insufficient information for determining how
states use HBP funds on individual project components, including non-deficient
bridges, tunnels, and roads. For example, in a prior report, we pointed out that
Michigan used almost $3 million in HBP funds on a single Federal-aid project that
involved preventive maintenance on three bridges that were not classified as
deficient, as well as four that were. FMIS lacked the capability to determine how
much Federal aid goes toward improving the condition of the project's deficient
bridges.

Understanding how bridge funds are spent is critical to targeting those structurally
deficient bridges that carry the majority of the Nation’s bridge traffic. According
to the NBI, the total number of structurally deficient bridges decreased about
15 percent from 2001 through 2009 (see table 1). However, the deck area of
structurally deficient National Highway System bridges, which carry a majority of
bridge traffic, increased by 8 percent over the same period.

              Table 1. Structurally Deficient Bridges in 2001 and 2009


                                     All Highway Systems                             National Highway System
                              2001             2009      Change                     2001             2009      Change
Bridges                    83,630           71,179       (14.9)%                   6,643            5,977       (10.0)%
Deck Area
(meters2)            31,505,907 31,199,863                 (1.0)%           12,455,463 13,499,718                  8.4%

Source: OIG analysis using NBI data, as of December 2009.




10
     Hearing on Structurally Deficient Bridges held September 5, 2007, before the U.S. House of Representatives
     Committee on Transportation and Infrastructure.
11
     A project is defined as an undertaking by a state for highway construction, including preliminary engineering, rights-
     of-way acquisition, and actual construction; for planning and research; or for any other work or activity to carry out
     laws for the administration of Federal highway aid (23 C.F.R. §1.2 (2008)).


                                                                                                                         7
To strengthen its oversight of Federal-aid funds, we recommended that FHWA:

• Collect and analyze HBP expenditure data on a regular basis to identify states'
  efforts to improve the condition of the Nation’s deficient bridges, such as
  replacement and rehabilitation.

• Report regularly to internal and external stakeholders on the effectiveness of
  states’ efforts to improve deficient bridges based on the analysis of HBP
  expenditure data and an evaluation of progress made in achieving performance
  targets.

• Collaborate with states in setting quantifiable performance targets to measure
  progress in the improvement of deficient bridges.

While FHWA concurred with our recommendations, it has shown little progress in
addressing them to date. In its response to our January 2010 report, FHWA
targeted May 1, 2010 to fully respond to the first two recommendations, and stated
that its planned actions included evaluating the integration of current stand-alone
systems to improve bridge project information and collecting more detailed project
information. FHWA noted in its formal comments on our January 2010 report that
it seeks to strike a balance between what is achievable in the near term with
existing resources, systems, and data, and what may be achievable in the future.
Specifically, FHWA stated that its efforts to obtain information on states' use of
Federal funding for deficient bridges and the resulting improvements could be
significantly affected by changes to the Federal-aid program and the HBP as a
result of the next highway authorization bill. During our preparations for this
hearing, FHWA informed us that more detailed information on bridge projects
would be included in FMIS by fiscal year 2012. We will need to obtain and assess
additional details on this reported action, including a specific implementation
schedule, before closing our recommendation.

We recognize that possible reauthorization modifications to HBP and other
changes could impact requirements for specific information gathered on states’ use
of bridge funding, but we maintain that taking action now could lead to near term
improvement and make it easier to carry out potential mandates. New
requirements might include monitoring state use of Federal funding, setting
performance targets for states to reduce the deck area of bridges classified as
structurally deficient, and directing states to report on their use of Federal funding
and progress made towards meeting performance targets. Given the challenges
posed by such requirements, implementation of feasible near term enhancements
could produce immediate results while better preparing FHWA to implement new
mandates.

                                                                                    8
DOT Has Not Assessed the Impact of ARRA-Funded Highway and
Bridge Projects
Of the $48 billion in ARRA funding designated to the Department of
Transportation (DOT), $27.5 billion, or 57 percent, went to FHWA for highway
and bridge infrastructure projects. Despite this large investment, DOT is not
evaluating the impact of ARRA funds on the U.S. transportation system, including
the billions that states have spent on bridge-related projects, according to a recent
Government Accountability Office (GAO) report. 12 DOT data on obligations by
project type indicate that ARRA highway obligations, as of July 2, 2010, included
$1.4 billion in bridge replacements, $1.2 billion in bridge improvements, and
$581 million in new bridge construction. Yet, similar to HBP funding, decision
makers cannot determine how much, if any, of this funding was actually spent on
the Nation's most deficient bridges because FHWA uses the same accounting
system, FMIS, to track ARRA. DOT has reported that it is considering ways to
improve its measurement and understanding of ARRA impacts.

Some States Did Not Conduct Federally Required Value Engineering
Studies
In June 2010, we issued an ARRA Advisory 13 after our ongoing audits of
FHWA’s oversight of highway infrastructure investments funded through ARRA
revealed that some states did not conduct federally required value engineering
(VE) studies on selected projects. While benefits gained from VE studies on
specific projects may vary, VE can improve performance, reliability, quality, and
safety, and reduce life-cycle costs. We determined that: FHWA's VE policy was
out-of-date; changes to VE requirements were not included in the Code of Federal
Regulations (C.F.R.); and VE was not discussed in most of the states' Stewardship
and Oversight Agreements with FHWA.

Recommendations from a VE study conducted prior to a project’s construction can
result in reductions in project cost estimates, allowing funds to be released and re-
programmed to other Federal-aid highway and bridge projects. Federal law
requires all federal-aid highway and bridge projects with estimated total costs
equal to or exceeding $25 million and $20 million, respectively, to undergo VE
studies during project concept and design. These cost thresholds also apply to the
$27.5 billion in FHWA highway infrastructure projects funded through ARRA.

Our ARRA Advisory urged FHWA to take timely action before the September 30,
2010 deadline for obligating ARRA funds. Specifically, we advised that FHWA

12
     GAO Report Number GAO-10-604, "Recovery Act: States' and Localities' Uses of Funds and Actions Needed to
     Address Implementation Challenges and Bolster Accountability," May 26, 2010.
13
     OIG Advisory AA-2010-001, "ARRA Advisory on FHWA's Oversight of the Use of Value Engineering Studies on
     ARRA Highway and Bridge Projects," June 28, 2010.

                                                                                                           9
needs to (1) update 23 C.F.R. § 627, Value Engineering, to include 2005 VE
legislative changes; 14 (2) ensure that FHWA, state, and local staff are fully
informed regarding VE legislative requirements and FHWA's revised VE policy;
and (3) require states, the District of Columbia, and Puerto Rico to include VE
requirements in their Stewardship and Oversight Agreements with FHWA.

According to FHWA, its revised VE policy, issued in May 2010, addresses the
timeliness of VE studies and provides effective guidance while regulatory updates
proceed. Further, while not directly requiring states to include VE in their
Stewardship and Oversight Agreements, FHWA contends that its new
performance measures provide integration of VE into FHWA and state practices.
As part of our ongoing ARRA audits, we plan to review FHWA's implementation
of its policy and performance measures and to further assess VE issues and
FHWA's actions.


CONCLUSION

We recognize FHWA's progress in implementing a data-driven, risk-based
approach to bridge oversight and support its efforts to address our related
recommendations. Given the volume of needs of the Nation's nearly 600,000
bridges, and the limited funding available to repair and replace bridges, FHWA
must target its oversight efforts at higher priority bridge safety risks and strengthen
its oversight of states' use of federal bridge funding. In particular, more needs to
be done to enable FHWA to evaluate the impact of the billions in Federal bridge
money that have been allocated to states in recent years for improving the
condition of deficient bridges. Accordingly, we will continue our monitoring
activities until FHWA demonstrates that it has been fully responsive to all our
recommendations. Although no work is scheduled in this area, we will initiate
future audit work on FHWA's bridge oversight, as appropriate.

Mr. Chairman, that concludes my remarks. I would be happy to answer any
questions that you or other members of the subcommittee may have.




14
     Pub. L. No. 109-59, Sec. 1904 (2005), the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A
     Legacy for Users (SAFETEA-LU), required that all bridge projects with an estimated total cost of $20 million or
     more undergo a VE study.

                                                                                                                10
